Supreme Court, U.S.
FILED

WAIVER

JUN 1 0 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-1349

George L. Miller, Chapter 7 Trustee for the Estate of HomeBanc Corp.

Bear Stearns & Co. Inc. et al.
,

V.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

Digitally signed by Stern, Andrew W.
Date: 2020.06.10 11:03:24 -04'00'

Stern, Andrew VV.

June 10, 2020

(Type or print) Name

Andrew W. Stern
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Sidley Austin LLP

Address

787 Seventh Avenue

City & State
Phone

New York, New York

212-839-5300

Zip
Email

10019

astern@sidley.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Steven M. Coren

RECEIVED
JUN 1 1 2020
OFFICE OFCOLERK
SUPREME COUR U.S.

